Supreme Court, U.S.
FILED

NOV 1 7 2020
)>

U.S. Supreme Court
£
1 First Street Alt
.

A/ Z>c

l

se

<24

State of Colorado Supreme Court
Case Number: 2020SC584-

OFFICE OF THE CLERK

.
fiS-i&l

AhssA
/y#:

'(f

£d?yy> j’c Stfi?
Colorado Court of Appeals
Case Number: 2018CA2320
District Court, San Miguel County, CO
Hon. Mary E. Deganhart

Case Number: 2018CV5 - Denied

Party Without Attorney:
Mark Halper
P.O. Box 431
Telluride, CO 81435
(970) 729-2096
sunshinemesa1@amail.com

Petitioner-Appellant - Plaintiff

MarkL. frf"2)/pe/'

Respondent-Appellee- Defendant
Jerry Moore and Linda Moore
PETITION FOR WRIT OF CERTIORARI
Petitioner is submitting this PETITION FOR WRIT OF CERTIORARI to the U.S. Supreme Court
as a result of numerous courts in the State of Colorado continuing to render horribly
flawed rulings that are not pertinent or relevant

and are not supported by on-point case law. The ruling by the District Court, County of
San Miguel, CO was horribly flawed in that it failed to address and recognize the legal
rights of Defendant Mark Halper as being a real
party of interest under the laws of the State of Colorado which can not be denied or

withheld.

Advisory Listing of issues Presented For Review
Whetherthe Colorado Supreme Court, the Colorado Court of Appeals, and the DistriCourt,
San Miguel County, CO were corrupt in failing to legally assess the evidence applicable case
law presented by Plaintiff/Petitioner-

Appellant pro se, and in so doing, denied and deprived him of an equitable and honorable
consideration for his legal arguments as being a real party of interest.
2. Whether the ruling by District Court, San Miguel County, CO judge Mary E. Deganhart
have all attempted to "sandbag" and torpedo's Plaintiff's legal right to an appeal by
refusing to acknowledge process Plaintiff's legal argument and documents for being a real
party of interest.

II. Reference To Report of Opinion
The Petitioner seeks review of the opinions and ruling contained in document Judgment
Affirmed.

III. Statement of the Case
Defendant clearly had legal rights as being a real party of interest, but was denied those
legal rights.

Under C.A.R. 49, the Supreme Court lists some occasions when the Supreme Court is more

likely to review a case. Those include:
i New Frontier: There is clearly either confusion or more likely a continued corrupt
Colorado judicial system that chooses to continue to persecute a plaintiff who had legal
standing as real party of interest. The Colorado judicial system has chosen to ignore and
refused to review sound legal arguments and appropriate case law.

ii For the Greater Good: Keeping this decision will continue to create a new norm that
severely impairs and jeopardizes the health, safety, and welfare of Petitioner/Appellant
Mark Halper. Thus, there is clearly a more compelling interest that would justify clarifying
or adjusting the rulings of both the Colorado Supreme Court and the District Court, San
Miguel County, CO which illegally and unlawfully denied the legal rights of Defendant
Mark Halper.

iii. Way Off Track: The U.S. Supreme Court needs to correct the injustice and corruption
being perpetuated within the Colorado judicial system and specifically from the Colorado
Supreme Court, the Colorado Court of Appeals and the 7th Judicial District to include the
District Court of San Miguel County, CO and all district courts throughout the State of
Colorado.
*
Respectfully submitted, this^day of November, 2020.
1? //'
i
Mark Halper
Petitioner-Appellant pro se

REASONS FOR GRANTING THE PETITION

e.
f

rsv/y£
(ft/wak &>ur/e>f

uc

V

ft/)

dez'm)/ e
de/de/" /i~

{$/>/& /&

/)$ 5~e

J

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

/

/

